     State of Oregon's Administration of
the Fire Management Assistance Grant Program
         for the Bland Mountain #2 Fire
                                                                                                     Offce of lnspeclor General
                                                                                                     Offce of Emergency Management Oversighi

                                                                                                     u.s. Department of Homeland Security
                                                                                                     300 Frank H Ogawa Plaza, Ste. 275
                                                                                                     Oakland, CA 94612
                                                                                    /~~rÃRT:\,;-.\
                                                                                  I~~."~"''';\
                                                                                 (_ ",;1
                                                                                 \\~¿:~~D ~i:,:,?~/

                                                                                                     Homeland
                                                                                                     Securi ty


                                                               September 22, 2008

                                                                         Preface

The U.S. Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment to the
Inspector General Act of 1978. This is one of a series of audits, inspections, and special reports
published as part of our oversight responsibilities to promote economy, effectiveness, and efficiency
within the department.

The attached report presents the results of the audit ofthe State of Oregon's Administration of the
Fire Management Assistance Grant Program for the Bland Mountain #2 Fire. We contracted with
the independent public accounting fiiin ofWiJliams, Adley & Company, LLP to perform the audit.
The contract required that Williams, Adley & Company, LLP perform its audit according to
generalJy accepted govemment auditing standards and guidance from the Robert T. Stafford Disaster
Relief and Emergency Assistance Act, Title 44 of the Code of Federal Regulations, and the Office of
Management and Budget. WilJiams, Adley & Company, LLP reported two areas in which the State
of Oregon's administration ofthc Fire Management Assistance Grant Program could be improved.
The report contains two recommendations addressed to the Regional Administrator, Federal
Emergency Management Agency, Region X.

Williams, Adley & Company, LLP is responsible for the attached auditor's report dated August 29,
2008, and the conclusions expressed in the report. The recommendations herein have been discussed
in draft with those responsible for implementation. It is our hope that this report wilJ result in more
effective, effcient, and economical operations. We express our appreciation to all of 

                                                                                                                              those who
contributed to the preparation of this report.



                                                                                R06t~t~ clJ;~~

                                                                                Robert J. r4,liico
                                                                                Western Regional Director
 ~~
~ ~~~~~~',,~?~~(?~?~l.~?l.~_,i:1'

                                                              ft t




   August 29, 2008

   Westem Regional Director

   Office of Emergency Management Oversight

   Offce of Inspector General

  U.S. Department of 
                      Homeland Security
  300 Frank H. Ogawa Plaza, Stc. 275
  Oakl and, CA 9461 2


  Williams, Adley & Company, LLP performed an audit of the State of Oregon's management of
  the Federal Emergency Management Agency's funds awarded under the Fire Management
  Assistance Grant Program. The audit was performed in accordance with our Task Order TPD­
  ARC-BPA-07-00J 4 dated September 27,2007.

  This report presents the results of the audit and includes recommendations to help improve
 management of the audited Fire Management Assistance Grant Program.

 Our audit was conducted in accordance with applicable Government Auditing Standards, July
 2007 revision. Although the audit report comments on costs claimed by the State of Oregon, we
 did not perform a financial audit, the purpose of which would be to render an opinion on the
 State of Oregon's financial statements or the funds claimed in the Financial Status Reports
 submitted to the Federal Emergency Management Agency.

 We appreciate the opportunity to have conducted this audit. Should you have any questions, or if
 we can be of further assistance, please call me on (202) 371-1397.

 Sincerely,

 Williams, Adley & Company, LLP



                                            ¡W

 ì ~_~!.:.c_:¡ H ~;trf.:.et. r'~ "'/d   ~~jljiíf' ! -¡ 5C ~          .C'i:. l-,ìC ::'~j¡~, ~~J~-' L   I-~   , ,              ,-: ,-,,,. '. ~.' ~ -' "-',." " ."
                                                                                                                  :- i:~/   ~. .~. \) / ' " . ~-':"'
                                                                                                                                                                      ,
                                                                                                                                                                      i


                                                                                                                                                                      I

Table of Contents/Abbreviations
                                                                                                                                                                    I
                                                                                                                                                                  :¡
                                                                                                                                                                  ii
                                                                                                                                                                  :~¡
                                                                                                                                                                  !~

 Executive Summary....... .......... ........ ............... ........... ........ ... ............. ." ................ ......... ........ ... ..... 1

                                                                                                                                                                  i~
 Background................................................................................ ..................................................... 2               ;:1

                                                                                                                                                                  .,:¡
                                                                                                                                                                      ï
 Results of Audit .... .......... ............ .... ............... ..... ................ ....... ...... ...... ....... ........... ....... .......... ......3   l.

                                                                                                                                                                  i

       Pre-positioning Costs ...... ................ ............. .................... ..... ....... ..... .... .... ............ .... ......... ......3

       Preparation and SUbmission of Project Worksheets ........................................................... ......4


 Appendices

      Appendix A: Objectives, Scope, and Methodology........ ...................................... ................... 6


 Abbreviations

      CFR                      Code of Federal Regulations
      DHS                      U.S. Department of 
            Homeland SecUlity
      FEMA                    Federal Emergency Management Agency
      FMAG                    Fire Management Assistance Grant
      GAR                     Govemor's Authorized Representative
      ODF                     Oregon Department of Forestry
      oiG                     Office of Inspector General
      PW                      Project Worksheet
Executive Summary
                 Wiliams, Adley & Company, LLP audited the State of 
          Oregon's (the state)
                 administration of 
        the Fire Management Assistance Grant (FMAG) Program       \
                 for the Bland Mountain #2 Fire (FMAG Declaration 2549). The objective of
                 the audit was to determine whether the state administered the FMAG Program
                 in an efficient and effective manner. To accomplish the objective, we
                 considered the overall impact of material deficiencies on grant program
                 administration. Specifically, we detennined how well the state (l) coordinated
                 and communicated with the Federal Emergency Management Agency (FEMA)
                 and subgrant applicants, (2) ensured compliance with federal laws and FEMA
                 guidelines, and (3) accounted for and e~pended FMAG Program funds. See
                 Appendix A for additional details on the objectives, scope, and methodology
                 of this audit.



                 On August 20, 2004, FEMA Region X awarded $6,063,449 under FMAG
                 Declaration 2549 to the Oregon Department of Forestry (ODF). FEMA
                 programmatically closed this declaration on December 1 l, 2006. Although
                 the audit scope included a review of costs reimbursed under the grant, a
                 financial audit of 
 those costs was not performed. Accordingly, we do not
                 express an opinion on the state's financial statements or the funds claimed in
                 the financial status reports submitted to FEMA.

                ODF administered the FMAG Program effectively and efficiently but did not
                always comply with federal laws and FEMA guidelines. Specifically, the
                state: (J) requested and FEMA Region X paid unallowable in-state
                pre-positioning costs, and (2) upon instructions from FEMA Regional
                personnel, split a $ 1 .6 milIion project into three project worksheets (PWs) and
                FEMA Region X obligated funding without obtaining FEMA Headquarters
                approval or reporting obligations in excess of $ i million to Congress.

                 We recommend that the Regional Administrator, FEMA Region X:
                 (I) disallow $605,302 in in-state pre-positioning costs claimed by ODF, and
               . (2) require that ODF identify all related project work on a single PW, and
                 review PWs to ensure they are not split and that proper notifications and
                 approvals are received before obligating the funds.

                We held exit conferences with the Oregon Department of Forestry and FEMA
                Region X on June i 7, 2008 and July l, 2008, respectively. ODF concurred
                with our findings and recommendations while FEMA Region X concurred
                with one finding and recommendation but did not concur with the other. A
                synopsis of the verbal comments we received is included in the Results of
                Audit section of 
 this report.




      State of Oregon's Administration of the Fire Management Assistance Grant Program

                                for the Bland Mountain #2 Fire


                                                      Page i
                                                                                                             1:1




                                                                                                             II

                                                                                                             íl

Background
                                                                                                  II
                                                                                                             ::1
                                                                                                             ;1
                  The Robert T. Stafford Disaster Relief and Emergency Assistance Act,                       1.1
                                                                                                             ii
                                                                                                             .,
                  (Stafford Act), signed into law November 23, 1988, authorizes the President                I.'
                                                                                                             ¡1
                  to provide federal funds to state and local governments under the FMAG                     :.1
                                                                                                             ". ,

                  Program for mitigation, management, and control of any fire burning on public              ¡!
                                                                                                             ¡.
                  or private forestland or grassland. The FMAG Program replaced the Fire                     I:
                  Suppression Assistance Program on October 30,2001. Title 44, Code of

                  Federal Regulations (44 CFR), Part 204 provides the procedures for the
                  declaration and grants management processes for the FMAG Program and
                  details applicant eligibility and the eligibility of costs to be considered under
                  the program.

                  Declaration Process



                  A declaration request must be submitted while a fire is burning uncontrolled
                  and threatens such destruction as would constitute a major disaster. The
                  Governor or the Governor's Authorized Representative (GAR) is authorized to
                  submit requests to the FEMA Regional Administrator or Regional Fire Duty
                  Liaison for fire management declarations. Due to the magnitude and impact of
                  a fire, the Governor or GAR can expedite the declaration process by verbally
                  requesting the declaration but must follow-up promptly after the date of an
                  initial telephone request with all official fonns and written infonnation.

                  Upon declaration approval by FEMA, the Governor or GAR will enter into a
                  standing FEMA/State Agreement (the Agreement) for the declared fire and for
                 future declared fires in that calendar year. The state must have a current and
                 signed Agreement before receiving federal funding under the FMAG
                 Program. The Agreement states the understandings, commitments, and
                 conditions under which FEMA will provide federal assistance, including the
                 75% federal and 25% non-federal cost share provision and articles of agreement
                 necessary for the administration of 
             the grants. The Agreement must identify
                 the state legislative authority for firefìghting, as weIl as the state's compliance
                 with the laws, regulations, and other provisions applicable to the FMAG
                 Program.

                 Grant Application and Reimbursement Process

                  Following a declaration, the state is required to submit a grant application
                 package to the FEMA Regional Administrator within 9 months of the
                 declaration. The Regional Administrator may grant an extension of up to
                 3 months upon receipt of a writtenrequest from the state thatincludes the
                 justification for an extension. The grantee must document the total eligible
                 costs for a declared fire on PWs, which are submitted with the grant
                 application. The Regional Administrator has 45 days from the receipt of       the
                 state's initial grant application, or an amendment to the state's grant
       State of Oregon's Administration of the Fin' Management Assistanll' Grant Program
                                      for the Bland Mountain #2 Fire

                                                         Page 2

                                                                                                               i
                                                                                                               I

                                                                                                               i




                   application, to approve or deny the application package or amendment, or to            IJ
                                                                                                          d
                   notify the state of a delay.                                                           r11
                                                                                                          i1'

                   By submitting PWs, the grantee certifies that all reported costs were incurred         HI


                   for work that was performed in compliance with laws, federal regulations and
                                                                                                          r;¡
                   FMAG Program policy and guidance, as well as the terms and conditions                  i!

                   outlined in the FMAG Program FEMA/State Agreement. Upon approval of                    ¡;
                                                                                                          I:
                   the grant application, FEMA obligates funds after detenining that: (1) the             I;
                                                                                                          r .~
                   state's eligible costs meet or exceed the individual or cumulative fire cost           ií
                                                                                                          I:
                   thresholds; and (2) the state has up-to-date State Administrative and Hazard
                                                                                                          I:
                   Mitigation Plans approved by the Regional Administrator.

                   Subgrantee requests for FMAG Program funding are 
    submitted on a Request
                   for Fire Management Assistance Subgrant (FEMA Form 90-133) to the grantee
                   according to state procedures and within timelines set by the grantee. This
                   request must be submitted no later than 30 days after the close of 

                                                                                           the incident
                   period. The grantee will review and forward the request to the Regional
                   Administrator for final review and deteimination.

Results of Audit

                   ODF administered the FMAG Program for the Bland Mountain #2 Fire in an
                   efficient and effective manner. ODF properly coordinated and communicated
                   with FEMA and subgrant applicants, and properly accounted for and
                   maintained adequate documentation for the $6,063,449 in FMAG Program
                   expenditures. However, ODF did not always comply with tèderal laws and
                   FEMA guidelines based on the following exceptions.

     Pre-positioning Costs
                  ODF claimed $605,302 for in-state pre-positioning costs not eligible under
                  federal regulations. According to 44 CFR 204.42(e), eligible pre-positioning
                  costs are the actual costs of pre-positioning federal, out-of-state (including
                  compact), and international resources for a limited period when those
                  resources are used in response to a declared fire. Once FEMA approves the
                  state's request for a fire management assistance declaration, the regulations
                  require the state to immediately notify the Regional Administrator of its
                  intention to seek funding for pre-positioning resources and the Regional
                  Administrator must approve all pre-positioning costs.

                  In late June 2004, FEMA Region X notified ODF that in-state pre-positioning
                  costs were not an eligible item of cost. In response to this notification, the
                  GAR said in an e-mail dated July l, 2004, "It is my intention to include ALL
                  applicable prepositioned severity resources in our project worksheet and if
                  they reject our in-state severity resources then i intend to file a formal appeal

        State of Oregon's Administration of the Fire Management Assistance Grant Program
                                  for the Bland Mountain #2 Fire

                                                        Page .3
                                                                                                          !
                                                                                                          11

                                                                                                          ¡i
             to the Regional Director as permitted under CFR 204.54." On July 6,2004,                     .1

             the GAR discussed   in-state pre-positioning costs with FEMA and reported                      I
                                                                                                          ;.1
             that FEMA had agreed to change its "Not Eligible" position for these costs to                !I
             "Will Consider". Subsequently, ODF included the in-state pre-positioning                     II
                                                                                                          .1
             costs on a PW dated August 23, 2005 and FEMA Region X reimbursed these                         i
                                                                                                            !
             costs. Based on reimbursement from Region X, it was not necessary for the                    ii
             GAR to file a formal appeaL. FEMA Region X grant files did not contain                       Ii
                                                                                                          ~J
             information to indicate why these ineligible costs were reimbursed and ODF                   1!

             was unable to provide documentation to support that they had received FEMA
             approval.

     Recommendations
             We recommend that the Regional Administrator, FEMA Region X:

             Recommendation #1. Disallow $605,302 in ineligible in-state
             pre-positioning costs.

     Management Comments and Auditor's Analysis
             We received verbal concun-ence on the recommendation from ODF officials.
             FEMA Region X officials did not verbally concur with the recommendation
             based on a differing interpretation of 44 CFR 204.42(e) and their adherence to
             9550.3 FEMA Interim Policy on Fire Suppression Assistance.

             The auditor contends that based on 44 CFR 204.42(e), in-state pre-positioning
             costs are not eligible. Further, while the Interim Policy on Fire Suppression
             Assistance does allow for reimbursement of in-state staging resources
             provided the state has met all program requirements, the interim policy was
             dated March 19, 200 i and terniinated upon implementation of the Firc
             Management Assistance Program. Specifically, paragraph number 6 ofthe
             interim policy states "In light of the forecasts for the 200 i Fire Season
             predicting another severe and potentially record setting tire season, we have
             decided to revise and reissue this policy in an effort to provide States with the
             fullest level of fire suppression assistance allowable under the law and FEMA
             regulations until implementation of 
              the Fire Management Assistance Program.
             This will be a very short-lived policy, and will tenninatc upon implementation
             of the Fire Management Assistance Program. This revision to the Interim
             Policy will not influence the rule making for the Fire Management Assistance
             Program." As a result, the in~state pre-positioned cost should be disallowed.

Preparation and Submission of Project Worksheets

             The state split a $1.6 million project into three PWs resulting in FEMA
             Region X obligating funds without obtaining FEMA Headquarters approval or

   State of Oregon'5 Administration or the Fire Management Assistance Grant Program

                             for the Bland MOllntain #2 Fire


                                                     I'age 4

                                                                                                 ,¡
                                                                                                  ¡
                                                                                                  i

                                                                                                 II




          reporting obligations in excess of $ i million to Congress. Initially, the state
          submitted a PW that included the total $1.6 milion in project costs but a
          FEMA Region X official suggested that the state split the costs into separate
          PWs so that the payment process could be expedited. Subsequently, on
          September 15,2005, ODF submitted to FEMA Region X PWs 9, 10 and 11 in
          the amounts of $63 i, i 84, $43 i ,395 and $571,09 i, respectively for the same
          project.

          The DHS Appropriations Act of2005 requires the Secretary of              Honieland
          Security to notify the Committees on Appropriations of           the Senate and the

          House of 
Representatives not less than three full business days before any
          grant allocation, discretionary grant award, or letter of intent totaling
          $1 million or more is announced. FEMA implemented thisprovision of law
          by having its regions notify FEMA Headquarters of 
           projects meeting this
          funding threshold. FEMA Headquarters then notifies DHS, Offce of
          Management and Budget, and Congress. To ensure that accurate information
          is submitted to Congress, FEMA Headquarters must review these PWs prior
          to submission. Once PW s are reviewed and approved by FEMA
          Headquarters, FEMA Regions can obligate the funds.

          Because each PW did not individualIy equal or exceed.$J million, the PWs
          were not submitted to FEMA Headquarters for approval and subsequent
          reporting to Congress. In turn, FEMA Region X obligated funds for the PWs
          without proper approval.



  Recommendations
          We recommend that the Regional Administrator, FEMA Region X:

          Recommendation #2. Require that ODF identify all related project work on
          a single PW rather than splitting the project into multiple PWs, and before
          obligating the funds, review PWs to ensure they are not split and that proper
          notifications and approvals are received for awards greater than or equal to
          $J milIion.



  l\lanagement Comments and Auditor's Analysis
          We received verbal concurrence on the recommendation from ODF officials.
          FEMA Region X offcials verbally concurred with the recommendation as it
          relates to PWs 9, i 0, and 11 but said it is important to note that FEMA
          guidelines allow for project costs to be split in certain circumstances where it
          is in the best interest of 
 the applicant, as approved by the Region.




State of Oregon's Administration of the Fire Maiiagement Assistance Grant Program
                               for the Bland Mountain #2 Fire

                                                Page 5

                                                                                                                       '1

                                                                                                                      il
Appendix A
Objectives, Scope, and Methodology                                                                                    lì

                                                                                                                      !;



                         Objectives

                                     the audit was to determine whether the state administered the
                         The objective of

                         FMAG Program in an effcient and effective manner. To accomplish the
                         objective, we considered the overall impact of       material deficiencies on grant

                         program administration. Specifically, we determined how well the state:
                         (I) coordinated and communicated with FEMA and subgrant applicants,
                         (2) ensured compliance with federal laws and FEMA guidelines, and
                         (3) accounted for and expended FMAG Program funds.

                         We were not engaged to and did not perform a financial statement audit, the
                                      which would be to express an opinion on specified elements,
                         objective of 


                         accounts, or items. Accordingly, we were neither required to nor expressed an
                         opinion on the costs claimed for the grant programs included in the scope of
                         the audit. Had we been required and perfonned additional procedures or
                         conducted an audit of the financial statements according to generally accepted
                         auditing standards, other matters might have come to our attention that would
                         have been reported. This report relates only to the programs specified and
                         does not extend to any financial statements of the state.

                         Scope

                         We audited the Bland Mountain #2 Fire (FMAG Declaration 2549) that was
                         awarded by FEMA to the state on August 20, 2004. The grant, totaling
                         $6,063,449, was programmatically closed on December 1 i, 2006.1 This
                         FEMA grant award was selected for review because the award was
                         significantly higher than other fire declarations within the same FEMA
                         Region. ODF administered the FMAG Program.

                         Methodology

                         We perfonned fieldwork at FEMA Region X, ODF, and the Douglas County
                         Sheriff     Department, which was the only subgrantee under the grant. To obtain
                         an understanding of 
          the grant procedures, we reviewed FEMA regulations, the
                         Stafford Act as amended, pertinent sections of           Title 44 of 
 the CFR, and Office
                         of    Management and Budget Circular A-87, Cost Principlesfor Staie, Local,
                         and Indian Tribal Governments.




1 FMAG Programs are considered programmatically closed jf all work has been completed and final costs submitted to
FEMA have been obligated.

              State of Oregon's Administration of the Fire Management Assistance Grant Program
                                        for the Bland Mountain #2 Fire

                                                               Page 6

                                                                                                       II

Appendix A                                                                                             n
                                                                                                       l'
Objectives, Scope, and Methodology                                                                     i1
                                                                                                       1',



                                                                                                       1:1
                     To achieve the objective of 
              this audit, we:                        11
                                                                                                       ii
                                                                                                       ¡i

                      I) Interviewed FEMA, state, and sub     grantee personnel to obtain an           :1
                                                                                                       II
                           understanding of policies and procedures followed and to iøentify            1

                           potential internal control weaknesses and their causes; .
                                                                                                       ii
                                                                                                       !.:
                     2) Reviewed grant files to determine whether sufficient documentation was         I.

                         present to support proper administration of the grant;

                     3) Reviewed the state's internal controls over accounting for grants to ensure
                         that the state properly recorded and repoiied grant expenditures;

                     4) Reviewed a statistical sample of  project worksheets to determine whether      ~:


                          grant monies were spent according to laws and regulations. We used
                          appropriate formulas to develop a variable sampling approach coupled
                          with the risk model promulgated by the Ameiican Institute of Certified
                          Public Accountants.

                     5) Reviewed prior audit reports to detennine whether deficiencies had been
                         noted in the reports with respect to the state's administration of the FMAG
                         Program or internal controls over grant fund accounting.

                     We conducted a perfonnance audit by executing tests, conducting interviews,
                     making observations and examining documentation in the foIl 
    owing areas:

                    I. Applicant Eligibility

                    2. Cost Eligibility

                    3. Procurement

                    4. Grantee's Accounting System and Internal Controls

                    5. Project Worksheet Review

                    6. Grant Reporting


                    We conducted our audit between November 2007 and July 2008 and
                    performed our work according to the Government Auditing Standards
                    prescribed by the ComptrolIcr General of 
 the United States (July 2007
                    Revision).




          State of Oregon's Administration of the Fire Management Assistance Grant Program
                                    for the Bland Mountain #2 Fire

                                                            I~age 7
Additional Information and Copies
                             this repoi1, call the Office ofInspector General (OIG) at
To obtain additional copies of 



(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oíg.


OIG Hotlne
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criiiiina1
or noncriminal misconduct relative to department programs or operations:

      · Call our Hotline at 1 -800-323-8603;

      · Fax the complaint directly to us at (202) 254-4292;
      . Email us at DHSOJGHOTLINE~dhs.gov; or

      . Write to us at:

                DHS Office oflnspector General/MAIL STOP 2600, Attention:
                Office ofInvestigations - Hotline, 245 Murray Drive, SW, Building 410,
                Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
